                  DEPARTMENTOF
                  DEPARTMNT  OFHEALTH
                               HEALTH & HUMANSERVICES
                                      & HUMN  SERVICES                                      OFFICE
                                                                                            OFFICEOF
                                                                                                   OFINSPECTOR
                                                                                                      INSPECTOR GENERAL
                                                                                                                GENERAL

                                                                                            Offce  of Audit
                                                                                            Officeof  Audit Services, RegionILL
                                                                                                            Servce, Region   III
(~f-'l:
 ~~~
  ~l).lalJ
                                                                                            Public
                                                                                            Public Ledger
                                                                                            150
                                                                                                   Ledger Buiding,
                                                                                                          Building,Suite
                                                                                            150 S. Independence
                                                                                                   Independence Mall
                                                                                                                    Suite316
                                                                                                                Mall West
                                                                                                                      West
                                                                                                                          316

                                                                                            Philadelphia, PA
                                                                                            Phiadelphia,     19106-3499
                                                                                                          PA 19106-3499


                                                          JUN 2232009
                                                          JUN   3 2009


             Report Number:
             Report Number: A-03-08-00202
                            A-03-08-00202

             Theodore Dallas
             Theodore Dallas
             Executive Deputy
             Executive Deputy Secretary
                               Secretary
             Department of
             Deparment    ofPublic
                            Public Welfare
                                   Welfare
             Health and Welfare Building, Room 234
             Harrisburg, Pennsylvania
             Harsburg,    Pennsylvania 17105-2675

                                       17105-2675

             Dear Mr. Dallas:
             Dear     Dallas:

             Enclosed is
             Enclosed   is the
                           the U.S.
                               U.S.Department
                                    Deparent ofofHealth
                                                   HealthandandHuman
                                                                HumanServices
                                                                        Services (HHS), Office
                                                                                         Office of
                                                                                                ofInspector
                                                                                                   Inspector
                      (DIG), final report entitled "Review
             General (OIG),                        "Review of of Disproportionate
                                                                 Disproportionate Share Hospital Payments
                                                                                                  Payments Made
             by Pennsylvania to State-Operated
                                  State-Operated Institutions
                                                   Institutionsfor
                                                                 forMental
                                                                    MentalDiseases."
                                                                            Diseases." We
                                                                                       We will forward a copy of
                                                                                          wil forward
                                HHS action official noted on the following page for review and any action
             this report to the HHS
             deemed necessary.

             The HHS action official will make final
                                      wil make   final determnation
                                                       determinationasastotoactions
                                                                             actions taken
                                                                                      taken on
                                                                                             on all
                                                                                                 all matters
                                                                                                     matters reported.
                                                                                                              reported.
             We request that you respond  to this official within
                         that you respond to ths official withn   30 days   from  the  date of this  letter.
                                                                     days from the date of ths letter.       Your
             response should present any comments or additional information that you believe may have a
             bearing
             bearng on the final determnation.
                                 determination.

             Pursuant to the Freedom of Information Act, Act, 55 U.S.c. §§ 552,
                                                                            552, OIG
                                                                                 DIG reports generally are made
             available to the public to the extent that information in the report is not subject to exemptions in
             the Act. Accordingly, this report wil
                 Act. Accordingly,              willbe
                                                     beposted
                                                         postedon on the
                                                                      the Internet
                                                                           Internet at
                                                                                    at http://oig.hhs.gov.

             If you have any questions
                             questions or comments
                                          comments about
                                                     about this  report, please do not hesitate to call me,
                                                            ths report,                                 me, or
             contact
             contact Robert
                     Robert Baiocco,
                            Baiocco, Audit
                                     Audit Manager,   at (215)
                                            Manager, at   (215) 861-4486,
                                                                861-4486, oror through e-mail at

                                                                                though e-mail  at
             Robert.Baiocco@oig.hhs.gov.    Please refer
             Robert.Baiocco(goig.hhs.gov. Please   refer to
                                                         to report
                                                            report number
                                                                    number A-03-08-00202 in all
             correspondence.

                                                              Sincerely,



                                                             Stephen V· bitsky
                                                         f   Regional Inspector
                                                             Regional
                                                         f Stephen
                                                               for
                                                                      Inspector General
                                                                    V' bitsky

                                                               for Audit
                                                                   Audit Services
                                                                         Services
                                                                                 General

             Enclosure
             Enclosure
Page 2 - Theodore
Page     Theodore Dallas
                  Dallas


Direct Reply to HHS Action Official:
Direct                     Offcial:

Jackie Garner
Jackie Garer
              Administrator
Consortium Administrator
Consortium for Medicaid
                 Medicaid and
                          and Children's
                              Children'sHealth
                                         HealthOperations
                                               Operations
             Medicare &
Centers for Medicare     Medicaid Services
                      & Medicaid  Services
233 North   Mkhigan   Avenue, Suite
    Nort Mkhigan Avenue, Suite 600  600
Chicago, llinois
Chicago,  lllinois 60601
                   60601

Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





REVIEW OF DISPROPORTIONATE 

 SHARE HOSPITAL PAYMENTS 

 MADE BY PENNSYLVANIA TO 

     STATE-OPERATED 

 INSTITUTIONS FOR MENTAL 

         DISEASES 





                    Daniel R. Levinson

                     Inspector General 


                        June 2009 

                      A-03-08-00202

                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                             Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. ' 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY 


BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In Pennsylvania, the Department of Public
Welfare (the State agency) administers the Medicaid program. Pennsylvania’s Federal share is
approximately 55 percent.

Section 1923 of the Act requires that States make Medicaid disproportionate share hospital
(DSH) payments to hospitals that serve a disproportionately large number of low-income
patients. The Omnibus Budget Reconciliation Act of 1993 limits these payments to the annual
costs incurred to provide services to Medicaid and uninsured patients less payments received for
those patients. This limit is known as the hospital-specific DSH limit.

In State fiscal year (FY) 2006–07, Pennsylvania made $291.9 million ($158.8 million Federal
share) in DSH payments to eight State-operated Institutions for Mental Diseases (IMD). Section
1905(i) of the Act and 42 CFR § 435.1010 define an IMD as “a hospital, nursing facility, or
other institution of more than 16 beds, that is primarily engaged in providing diagnosis,
treatment, or care of persons with mental diseases, including medical attention, nursing care and
related services.”

OBJECTIVES

Our objectives were to determine whether the State agency (1) complied with Federal and State
requirements when it calculated DSH payments to the eight State-operated IMDs for State FY
2006–07 and (2) did not exceed the hospital-specific limits imposed by section 1923(g) of the
Act.

SUMMARY OF FINDING

The State agency did not comply with Federal and State requirements when it calculated the
hospital-specific limits for the eight State-operated IMDs for State FY 2006–07. The State
agency included in its calculations some patient days for individuals who were inmates being
held involuntarily by the State’s criminal justice system. We removed the unallowable days and
recalculated the hospital-specific limits for each State-operated IMD. Our calculation totaled
$349,268,003. DSH payments to the eight State-operated IMDs totaled $291,927,766 for State
FY 2006–07. The appendix provides the calculation of the hospital-specific limit and the DSH
payments made for each of the eight State-operated IMDs. The State agency’s DSH payments
did not exceed the corrected hospital-specific limits imposed by section 1923(g) of the Act for
any of the eight State-operated IMDs.



                                              i
Although the DSH payments did not exceed the hospital-specific limit for the eight State-
operated IMDs, the State agency’s inclusion of unallowable patient days in the hospital-specific
limit calculation leads us to express our concern that the State may in the future make DSH
payments in excess of the hospital-specific limit.

RECOMMENDATION

We recommend that the State agency amend its State plan to comply with Federal guidance to
exclude costs associated with individuals under the control of the State’s criminal justice system
from its calculation of the hospital-specific DSH limits for the State-operated IMDs.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency did not concur with our
recommendation to amend its State plan, but said that it would work with CMS to secure both a
determination on the State-operated IMD’s medical facility status and a more detailed
determination regarding medical assistance eligibility for incarcerated patients. The State agency
also said that Office of Inspector General’s methodology for calculating the hospital-specific
limit was based on incorrect patient census and payment data. The State agency’s comments are
presented in their entirety as Appendix B.

OFFICE OF INSPECTOR GENERAL RESPONSE

We revised Appendix A to clarify the patient days as noted by the State agency. This change
had no effect on the calculation of the hospital-specific limit for the eight State-operated IMDs.
However, nothing in the State agency’s comments has given us cause to change our
recommendation.




                                                ii
                                                  TABLE OF CONTENTS


                                                                                                                                         Page

 INTRODUCTION.......................................................................................................................1 


      BACKGROUND ....................................................................................................................1

        The Medicaid Program .....................................................................................................1 

        Medicaid Disproportionate Share Hospital Program........................................................1 

        Institutions for Mental Diseases........................................................................................2 

        Pennsylvania’s Institutions for Mental Diseases ..............................................................2 


      OBJECTIVES, SCOPE, AND METHODOLOGY................................................................2 

        Objectives .........................................................................................................................2 

        Scope.................................................................................................................................3 

        Methodology .....................................................................................................................3 


 FINDING AND RECOMMENDATION..................................................................................3 


      FEDERAL REQUIREMENTS AND GUIDANCE ...............................................................4 


      UNALLOWABLE INPATIENT DAYS USED TO CALCULATE 

       HOSPITAL-SPECIFIC LIMITS .........................................................................................4 


      HOSPITAL-SPECIFIC LIMITS IMPROPERLY CALCULATED ......................................6 


      RECOMMENDATION ..........................................................................................................6 


      STATE AGENCY COMMENTS...........................................................................................6 


      OFFICE OF INSPECTOR GENERAL RESPONSE .............................................................6 


APPENDIXES

      A – HOSPITAL-SPECIFIC LIMITS AND UNCOMPENSATED CARE 

           CALCULATION 


      B – STATE AGENCY COMMENTS




                                                                   iii
                                              INTRODUCTION 


BACKGROUND

The Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In Pennsylvania, the Department of Public
Welfare (the State agency) administers the Medicaid program. Pennsylvania’s Federal share is
approximately 55 percent.

Section 1905(a) of the Act and 42 CFR § 435.1009(a)(1) prohibit Medicaid funding for
individuals who are inmates of public institutions.

Medicaid Disproportionate Share Hospital Program

The Omnibus Budget Reconciliation Act of 1981 established the Medicaid Disproportionate Share
Hospital (DSH) program. Section 1902 of the Act requires State Medicaid programs to “ . . . take
into account (in a manner consistent with section 1923) the situation of hospitals which serve a
disproportionate number of low-income patients with special needs” when determining payment rates
for inpatient hospital care. This requirement is referred to as the Medicaid DSH payment adjustment.

Section 1923 of the Act requires that States make Medicaid DSH payments to hospitals that
serve a disproportionately large number of low-income patients. The Omnibus Budget
Reconciliation Act of 1993 limits these payments to the annual costs incurred to provide services
to Medicaid and uninsured patients less payments received for those patients. This limit is
known as the hospital-specific DSH limit.

In an August 1994 letter to State Medicaid directors, CMS clarified the DSH provisions of the
Omnibus Budget Reconciliation Act of 1993. In regard to the costs of services under the DSH
limit, CMS stated that it would:

            . . . permit the State to use the definition of allowable costs in its State plan, or
           any other definition, as long as the costs determined under such a definition do
           not exceed the amounts that would be allowable under the Medicare principles of
           cost reimbursement. . . . HCFA 1 believes this interpretation of the term “costs
           incurred” is reasonable because it provides States with a great deal of flexibility
           up to a maximum standard that is widely known and used in the determination of
           hospital costs.


1
    CMS was formerly called the Health Care Financing Administration (HCFA).


                                                        1

Institutions for Mental Diseases

Section 1905(i) of the Act and 42 CFR § 435.1010 define an Institution for Mental Disease
(IMD) as “a hospital, nursing facility, or other institution of more than 16 beds, that is primarily
engaged in providing diagnosis, treatment, or care of persons with mental diseases, including
medical attention, nursing care and related services.” Psychiatric hospitals (including State-
operated and private psychiatric hospitals) and inpatient psychiatric residential treatment
facilities with more than 16 beds are IMDs. Conversely, not all facilities that provide inpatient
psychiatric care are classified as IMDs. Specifically, facilities that have fewer than 17 beds, and
those facilities that are not primarily engaged in providing care to persons with mental diseases
(regardless of the number of beds) are not IMDs.

Pennsylvania’s Institutions for Mental Diseases

During our audit period, the State agency operated eight IMDs (State-operated IMDs) for
persons with serious mental illness. In State fiscal year (FY) 2006–07, the State agency made
DSH payments to all of the State-operated IMDs:

       •   Allentown State Hospital, Allentown, Pennsylvania (Allentown)
       •   Clarks Summit State Hospital, Clarks Summit, Pennsylvania (Clarks Summit)
       •   Danville State Hospital, Danville, Pennsylvania (Danville)
       •   Mayview State Hospital, Bridgeville, Pennsylvania (Mayview)
       •   Norristown State Hospital, Norristown, Pennsylvania (Norristown)
       •   Torrance State Hospital, Torrance, Pennsylvania (Torrance)
       •   Warren State Hospital, North Warren, Pennsylvania (Warren)
       •   Wernersville State Hospital, Wernersville, Pennsylvania (Wernersville)

These facilities provide intensive treatment for patients needing extended psychiatric inpatient
care. Mayview, Norristown, and Warren each provided services through forensic units as well as
psychiatric units. 2 Forensic units serve individuals who require treatment in highly secure
buildings.

OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

Our objectives were to determine whether the State agency (1) complied with Federal and State
requirements when it calculated DSH payments to the eight State-operated IMDs for State FY
2006–07 and (2) did not exceed the hospital-specific limits imposed by section 1923(g) of the
Act.




2
    Mayview has closed since our audit was conducted.



                                                        2

Scope

Our audit covered $291,927,766 ($158,842,420 Federal share) in DSH payments claimed by the
State agency and made to its eight State-operated IMDs for State FY 2006–07. 3 We did not
perform an in-depth review of the State’s internal control structure; however, we made a limited
assessment of the fiscal controls related to DSH claims submitted for Federal reimbursement.

We performed fieldwork during March and April 2008 at the offices of the State agency in
Harrisburg, Pennsylvania.

Methodology

To accomplish our objectives, we:

        •	 reviewed the Omnibus Budget Reconciliation Acts of 1981 and 1993, sections 1902
           and 1923 of the Act, and other applicable DSH criteria;

        •	 reviewed those pages of Attachment 4.19A of the Medicaid State plan that governed
           DSH payments;

        •	 reconciled $291.9 million ($158.8 million Federal share) of DSH payments claimed
           by the State agency for State FY 2006–07 on the Quarterly Medicaid Statements of
           Expenditures for the Medical Assistance Program, Form CMS-64 (CMS-64);

        •	 calculated the hospital-specific DSH limit for each of the State-operated IMDs for
           State FY 2006–07 through an analysis of hospital cost reports and other supporting
           documentation;

        •	 compared the DSH payments to the hospital-specific DSH limits; and

        •	 discussed the audit results with CMS and State agency officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our finding and conclusion
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusion based on our audit objectives.

                               FINDING AND RECOMMENDATION

The State agency did not comply with Federal and State requirements when it calculated the
hospital-specific limits for the eight State-operated IMDs for State FY 2006–07. The State
agency included in its calculations some patient days for individuals who were inmates being
3
 This is one of two audits that reviewed the State agency’s DSH program for IMDs. The other was “Review of
Pennsylvania’s Determination of Medicaid Disproportionate Share Hospital Eligibility for State–Operated
Institutions for Mental Diseases,” (A-03-08-00203).



                                                     3

held involuntarily by the State’s criminal justice system. We removed the unallowable days and
recalculated the hospital-specific limits for each State-operated IMD. Our calculation totaled
$349,268,003. DSH payments to the eight State-operated IMDs totaled $291,927,766 for State
FY 2006–07. The appendix provides the calculation of the hospital-specific limit and the DSH
payments made for each of the eight State-operated IMDs. The State agency’s DSH payments
did not exceed the corrected hospital-specific limits imposed by section 1923(g) of the Act for
any of the eight State-operated IMDs.

Although the DSH payments did not exceed the hospital-specific limit for the eight State-
operated IMDs, the State agency’s inclusion of unallowable patient days in the hospital-specific
limit calculation leads us to express our concern that the State may in the future make DSH
payments in excess of the hospital-specific limit.

FEDERAL REQUIREMENTS AND GUIDANCE

Section 1905(a)(xiii)(28) of the Act excludes Medicaid payment for all services to “A) . . . any
individual who is an inmate of a public institution (except as a patient in a medical institution
. . .” Additionally, 42 CFR § 435.1009(a)(1) states that Federal funding is not available for
services to “individuals who are inmates of public institutions as defined in Sec. 435.1010.”
[sic.] Pursuant to 42 CFR § 435.1010, “[i]nmate of a public institution means a person who is
living in a public institution. An individual is not considered an inmate if . . . (b) He is in a
public institution for a temporary period pending other arrangements appropriate to his needs.”
In a letter to Associate Regional Administrators dated December 12, 1997, CMS stated that “[a]n
individual is an inmate when serving time for a criminal offense or confined involuntarily in
State or Federal prisons, jails, detention facilities, or other penal facilities.” (Emphasis added.)
CMS further clarified that inmates of correctional facilities are wards of the State, which is
responsible for their medical coverage and therefore, the State agency cannot make DSH
payments to cover the cost of their care (State Medicaid Director’s Letter 02-013, August 16,
2002).

42 CFR § 430.10 requires States to include assurances that the State plan is in compliance with
Federal law, regulations, and official guidance issued by the U.S. Department of Health and
Human Services.

UNALLOWABLE INPATIENT DAYS USED TO CALCULATE
HOSPITAL-SPECIFIC LIMITS

The State agency incorrectly included in its calculation of the hospital-specific limits patient
days excluded under section 1905(a)(xiii)(28) of the Act for individuals being involuntarily held
in public institutions by the State’s criminal justice system. The State agency based its
calculation of the hospital-specific limits on 650,031 inpatient days, which included 38,546 days
related to individuals being held involuntarily by the State’s criminal justice system. Table 1 on
the following page identifies the unallowable and adjusted patient days for each State-operated
IMD.




                                                4

                      Table 1: Patient Days Used in Hospital-Specific Calculation

                                               Total Patient    Total Days for    Total Patient
                                               Days—State        Incarcerated     Days—OIG 4
               Facility Name                    Calculated        Individuals      Calculated
       Allentown                                  58,987               793           58,194
       Clarks Summit                              75,055             1,857           73,198
       Danville                                   60,206             1,909           58,297
       Mayview (Psychiatric Unit)                 89,757             2,117           87,640
       Mayview (Forensic Unit)                    19,157             5,740           13,417
       Norristown (Psychiatric Unit)             102,989             5,274           97,715
       Norristown (Forensic Unit)                 35,927            12,076           23,851
       Torrance                                   72,748               932           71,816
       Warren (Psychiatric Unit)                  53,402             2,709           50,693
       Warren (Forensic Unit)                       8,840            2,994             5,846
       Wernersville                               72,963             2,145           70,818
                    Total                        650,031            38,546          611,485

Using the corrected number of patient days, we determined the hospital-specific limit for each of 

the eight State-operated IMDs for State FY 2006–07 by calculating hospital costs based on per 

diem rates for inpatient stays and subtracting Medicaid payments and patient payments received 

by each of the State-operated IMDs. We subtracted DSH payments from the hospital-specific 

limits to calculate the remaining uncompensated care costs. (See Appendix A.) Table 2 

summarizes the hospital-specific limit and DSH payment for each State-operated IMD.


                             Table 2: OIG Calculated Hospital-Specific Limit

                                                       OIG Calculated
                                                           Hospital           State Agency
                      Facility Name                     Specific Limit       DSH Payments
       Allentown                                         $34,351,456         $27,045,382
       Clarks Summit                                      41,865,733           31,694,595
       Danville                                           33,041,690           23,181,386
       Mayview (Psychiatric Unit included)                58,100,239           55,454,375
       Norristown (Psychiatric Unit included)             67,744,087           66,874,950
       Torrance                                           38,656,830           33,032,521
       Warren (Psychiatric Unit included)                 36,421,842           30,007,472
       Wernersville                                       39,086,126           24,637,085
                       Total                           $349,268,003         $291,927,766




4
    OIG denotes Office of Inspector General.



                                                       5

HOSPITAL-SPECIFIC LIMITS IMPROPERLY CALCULATED

The hospital-specific limits for the eight State-operated IMDs were inflated because they
included patient days and related service costs for inmates under the control of the State’s
criminal justice system. Federal laws and guidance prohibit the inclusion of individuals who are
inmates of public institutions, including correctional facilities. Although the State agency’s DSH
payments did not exceed the hospital-specific limits for the eight State-operated IMDs, we have
some concern that DSH payments may exceed the hospital-specific limits in the future.

RECOMMENDATION

We recommend that the State agency amend its State plan to comply with Federal guidance to
exclude costs associated with individuals under the control of the State’s criminal justice system
from its calculation of the hospital-specific DSH limits for the State-operated IMDs.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency did not concur with our
recommendation to amend its State plan, but said that it would work with CMS to secure both a
determination on the State-operated IMD’s medical facility status and a more detailed
determination regarding medical assistance eligibility for incarcerated patients. The State agency
also said that OIG’s methodology for calculating the hospital-specific limit was based on
incorrect patient census and payment. It presented its calculation for Allentown State Hospital as
an example of its calculation. The State agency’s comments are presented in their entirety as
Appendix B.

OFFICE OF INSPECTOR GENERAL RESPONSE

We revised Appendix A to clarify the patient days as noted by the State agency. This change
had no effect on the calculation of the hospital-specific limit for the eight State-operated IMDs.
The State agency’s example represented its intended DSH payment for Allentown State hospital,
not the hospital-specific limit, which we calculated. We did not question the State agency’s
DSH payments in our report. Accordingly, nothing in the State agency’s comments has given us
cause to change our recommendation.




                                               6

APPENDIXES 

                                                                                      APPENDIX A
                                                                                        Page 1 of 3


                                HOSPITAL-SPECIFIC LIMITS AND
                             UNCOMPENSATED CARE CALCULATIONS


The first line represents costs for services provided in psychiatric units in each of the eight State-
operated Institutions for Mental Diseases (IMD). The calculation for Mayview, Norristown, and
Warren State Hospitals include a second line representing costs for services provided in forensic
units. The patient days did not include individuals under the control of the State’s criminal
justice system. State-operated IMD records classify patient types into three groups:
1) Individuals covered by the State’s Medicaid program, 2) Patient Pay - individuals with no
insurance who made payments for their services from personal funds, and 3) Indigent -
individuals with no insurance who have made no payments for their services.


                                 Allentown State Hospital 

             Patient Days by Payer Type 

                       Patient                                   Per      Patient
          Medicaid       Pay       Indigent      Total          Diem       Costs
           5,944       32,929       19,321      58,194        $609.83   $35,488,447
                                                    Medicaid Payments      -288,064
                                                       Patient Payments    -848,927
                                                Hospital-Specific Limit $34,351,456
                                                        DSH Payments 1 -27,045,382
                                                 Uncompensated Care $7,306,074



                               Clarks Summit State Hospital
             Patient Days by Payer Type
                       Patient                                  Per      Patient
          Medicaid       Pay       Indigent     Total          Diem       Costs
           9,187       44,950       19,061     73,198        $589.80   $43,172,180
                                                   Medicaid Payments      -273,657
                                                      Patient Payments  -1,032,790
                                               Hospital-Specific Limit $41,865,733
                                                       DSH Payments -31,694,595
                                                Uncompensated Care $10,171,138




1
    DSH denotes Disproportionate Share Hospital.
                                                                    APPENDIX A
                                                                      Page 2 of 3



                         Danville State Hospital
   Patient Days by Payer Type
             Patient                                     Per      Patient
Medicaid       Pay       Indigent        Total          Diem       Costs
 8,698       32,601       16,998        58,297        $588.88   $34,329,937
                                            Medicaid Payments      -380,565
                                               Patient Payments    -907,682
                                        Hospital-Specific Limit $33,041,690
                                                DSH Payments -23,181,386
                                         Uncompensated Care $9,860,304



                        Mayview State Hospital
   Patient Days by Payer Type
             Patient                                  Per       Patient
Medicaid       Pay       Indigent     Total          Diem        Costs
 11,202      43,830       32,608      87,640       $564.04    $49,432,466
      0        3,261      10,156      13,417       $750.67     10,071,739
                                          Medicaid Payments      -455,741
                                            Patient Payments     -948,225
                                      Hospital-Specific Limit $58,100,239
                                              DSH Payments -55,454,375
                                      Uncompensated Care $2,645,864



                       Norristown State Hospital
   Patient Days by Payer Type
             Patient                                   Per      Patient
Medicaid       Pay       Indigent      Total          Diem       Costs
 13,145      45,391       39,179      97,715        $534.27   $52,206,193
      0      11,380       12,471      23,851        $733.58    17,496,617
                                          Medicaid Payments      -710,193
                                             Patient Payments  -1,248,530
                                      Hospital-Specific Limit $67,744,087
                                              DSH Payments -66,874,950
                                       Uncompensated Care        $869,137
                                                                   APPENDIX A
                                                                     Page 3 of 3



                        Torrance State Hospital
   Patient Days by Payer Type
             Patient                                   Per       Patient
Medicaid       Pay       Indigent      Total          Diem        Costs
 7,082       40,169       24,565       71,816       $555.42    $39,888,043
                                          Medicaid Payments       -220,100
                                             Patient Payments   -1,011,113
                                       Hospital-Specific Limit $38,656,830
                                               DSH Payments -33,032,521
                                       Uncompensated Care $5,624,309



                         Warren State Hospital
   Patient Days by Payer Type
             Patient                                   Per      Patient
Medicaid       Pay       Indigent      Total          Diem       Costs
 6,563       26,068       18,062      50,693        $647.91   $32,844,502
     0         1,820       4,026       5,846        $784.16     4,584,199
                                          Medicaid Payments      -293,614
                                             Patient Payments    -713,245
                                      Hospital-Specific Limit $36,421,842
                                              DSH Payments -30,007,472
                                       Uncompensated Care $6,414,370



                      Wernersville State Hospital
   Patient Days by Payer Type
             Patient                                   Per       Patient
Medicaid       Pay       Indigent      Total          Diem        Costs
 12,681      41,949       16,188       70,818       $581.49    $41,179,959
                                           Medicaid Payments      -868,650
                                             Patient Payments   -1,225,183
                                       Hospital-Specific Limit $39,086,126
                                               DSH Payments -24,637,085
                                       Uncompensated Care $14,449,041
                                                                                                APPENDIX B
                                                                                                  Page 1 of 3




                                        OOMM~'~rno,~cv~"ffJ)r~~2                                jff]~
                                                                                       0

                                                          ~
                                  DEPARTMENT OF PUBLIC WELFARE
                                                  P.O. BOX 2675
                                                                 :
                                       HARRISBURG, PENNSYLVANIA 17105·2675


     Theodore Dallas                              MAY Z 8 2009                                (717) 787·2600
Executive Deputy Secretary                                                               Email: tdallas@s:tiitc.pa.ll~


       Mr. Stephen Virbitsky
       Regional Inspector General for Audit Services
       Department of Health & Human Services
       Office of Inspector General
       Office of Audit Services, Region III
       150 South Independence Mall West, Suite 316
       Philadelphia, Pennsylvania 19106-3499

       Dear Mr. Virbitsky:

             Thank you for your March 12 letter that transmitted the draft report entitled
       "Review of Disproportionate Share Hospital Payments Made by Pennsylvania to State­
       Operated Institutions for Mental Diseases" for the period July 1, 2006 through June 30,
       2007.

              This audit determined that the eight State-Operated Institutions for Mental
       Diseases (IMDs) received a total of $291.9 million ($158.8 million Federal share) in
       Disproportionate Share Hospital (DSH) payments. Based on the patient census data
       collected, the claims made for DSH payments were within each State-operated IMD's
       hospital specific limit.

       Office of Inspector General (OIG) Recommendation: We recommend that the State
       agency amend its State plan to comply with Federal guidance to exclude costs
       associated with individuals. under the control of the State's criminal justice system from
       its calculation of the hospital-specific DSH limits for the State-Operated IMDs.

       Department of Public Welfare (DPW) Response: The OIG states on page 1 of the
       report that the objectives of this audit were to "determine whether the State agency (1)
       complied with Federal and State requirements when it calculated DSH payments to the
       eight State-operated IMDs for State FY 2006-07 and (2) did not exceed the hospital­
       specific limits imposed by section 1923(g) of the Act." The DPW believes that the OIG
       has published within this report several inaccuracies with regard to both the patient
       census data and calculation used to determine the Hospital-Specific Limit for each IMD.

       Specifically, the days reflected in Table 1 of the report, Total Patient Days - State
       Calculated, are not the days actually reported on the claim for DSH payment. The OIG
       calculated the days from source data that the DPW Reimbursement Operations Section
       (ROS) does not utilize. A data dump showing State-Operated IMD's patients' Medical
       Assistance (MA) eligibility was provided by the DPW, Office of Income Maintenance
                                                                                        APPENDIX B
                                                                                          Page 2 of 3




Mr. Stephen Virbitsky                     2


(OIM), and from the DPWs Client Information System (CIS). The OIG used this data
dump to determine a patient's eligibility for Medical Assistance (MA), even though the
patient is not eligible when institutionalized. If a patient is between the ages of 22 to 64
and institutionalized within the State-Operated IMD, then the DPW does not bill MA for
the days. ROS provided the MA Charge Reconciliation Report as a source document
for MA days to the OIG during this audit.

The OIG utilized a portion of the State Plan within the report that does not apply to the
State-Operated IMDs, specifically page 25 titled "Additional Disproportionate Share
Payment", which allows for additional DSH payments to Private Inpatient Hospitals.
The additional payments claimed are determined by private hospitals after verification
that the patient has met the "income and resource standards for the State's General
Assistance Program." The OIG incorrectly applied this portion of the plan and the CIS
data dump to qualify Self-Pay (Indigent) patients as General Assistance (GA). Patient
days reported by the DPW include Medicaid, Indigent and Patient Pay. The State­
Operated IMDs do not have categorized GA days.

Within the Appendix section of the audit report, the DPW records do not tie to the
breakdown of patient days by payer type identified by the OIG, as the 06/07 MA days,
as stated above, are being pulled from the wrong source document; therefore, MA days
are clearly overstated. For example, Allentown State Hospital had 5,944 MA days
according to the DPW's records; however, the OIG listed the total MA days as 16,266
days.

Additionally, in the Appendix, the calculation that the OIG used to arrive at the Hospital­
Specific Limit seems to be overstated. For example, the DSH limit for Allentown State
Hospital (ASH) according to the DPWs records is $29,979,659 (as identified below) and
the OIG calculated the limit within this audit report as $34,351,456. Based on
Allentown's calCUlation, the OIG reduced MA payments from the $3,336,765 reported by
the DPW to $288,064. This results in understated MA Revenues of approximately
$3,048,701. Also, the DPW deducts revenues received for both Medicare Part Band
Medicare Part 0 when determining the Hospital-Specific Limit, which the OIG did not
adjust as part of their calculation.

       The DPWs calculation of the Hospital-Specific Limit for ASH is as follows:

                     Total Costs                  $35,972,042
                     MA                           $( 3,336,765)
                     Medicare Part B              $( 1,125,089)
                     Medicare Part 0              $( 681,602)
                     Other                        $( 848,927)
                     Hospital-Specific Limit      $29,979,659
                                                                                      APPENDIX B
                                                                                        Page 3 of 3





Mr. Stephen Virbitsky                    3


In the report, it was recommended that the State agency amend its State Plan to
exclude costs associated with individuals under the control of the State's criminal justice
system from its calculation of the Hospital-Specific OSH Limits for the State-Operated
IMOs. The OPW is aware of the clarifications sent by the Centers for Medicare and
Medicaid Services (CMS) to the MA program Administrators regarding the
determination of inmates. However, the OPW has always viewed the State-Operated
IMOs as medical facilities providing active treatment. As a result, the OPW will work
with CMS to secure a determination on both the State-Operated IMO's medical facility
status and a more detailed determination regarding MA eligibility for incarcerated
patients, specifically juvenile offenders.

      Thank you for the opportunity to respond to this report. If you need any further
information, please.contact Alex Matolyak, Bureau of Financial Operations, Audit
Resolution Section, at (717) 783-7786, or via e-mail atamatolyak@state.pa.us.
